U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  Office of the Secretary


               Review of Fiscal Year 2006
                 Congressional Earmarks




          Final Audit Report No. DEN-19021/May 2008




                         Denver Regional Office of Audits
                                                               CONTENTS

SUMMARY........................................................................................................................................i
FINDINGS......................................................................................................................................... 1
   I. 327 Congressional Earmarks Total $798.8 Million in FY 2006 ................................................ 1
   II. Earmarked Projects Have the Same Oversight and Compliance Requirements as Other
   Projects........................................................................................................................................... 3
   III. Earmarked Projects are Consistent with Commerce Mission and Goals................................. 4
   IV. Conclusion ............................................................................................................................... 7
Appendix I—U.S. Department of Commerce Organization Chart.................................................... 8
Appendix II—Objectives, Scope, and Methodology......................................................................... 9
Appendix III—Prior Earmark Reports.............................................................................................12
U.S. Department of Commerce                                                 Final Report DEN-19021
Office of Inspector General                                                               May 2008

                                         SUMMARY

In a letter dated August 23, 2006, Senator Tom Coburn-R, OK, then-Chairman of the
Subcommittee on Federal Financial Management, Government Information, and International
Security, requested the Office of Inspector General (OIG) of the Department of Commerce to
conduct an analysis of the Department’s congressional earmarks for FY 2006. Senator Coburn
requested that we determine (1) the total number and cost, including the cost of the earmark itself
and related costs such as staff time and administration, of congressional earmarks within the
programs monitored by OIG; (2) what specific oversight is conducted on earmarks and how the
oversight compares to that conducted on other expenditures such as grants and contracts, and
(3) the overall impact of earmarks on advancing the primary mission and goals of the Department.

We considered a number of definitions for earmarks, as explained in our Objectives, Scope, and
Methodology, Appendix II, page 9. The definition that most clearly identified congressional
actions on the Department’s budget came from the Commerce Budget Office, which identified
three types of congressional budget actions it tracks: (1) funding added to programs in the
President’s budget; (2) funding for projects not in the President’s budget; and (3) actions that
limit the expenditure of funds in the President’s budget. Based on this information, we identified
327 earmarks totaling $798.8 million in FY 2006, or 9.6 percent of the total Commerce budget of
$8.3 billion in FY 2006. More than 90 percent of the number of earmarks in Commerce went to
the National Oceanic and Atmospheric Administration (NOAA), which had 298 earmarks
totaling $594.5 million. Some $638.6 million in FY 2006 earmarks (almost 80 percent) provided
funding for projects not included in the President’s budget. Out of that amount, $459 million was
for projects in NOAA (see page 1).

Our scope and objectives are further explained in Appendix II, including a discussion of issues
surrounding the definition of earmarks. According to the Congressional Research Service
memorandum dated March 6, 2006, there is no single definition of the term earmark, nor is there
a standard earmarking practice across all appropriation bills. Consistent with the Commerce
Budget Office definition, our audit did not include earmarks originating in the Executive Branch
or include an analysis of those congressional earmarks for programs where the President’s
budget proposed funding below the congressionally authorized funding levels.

Commerce bureaus do not account for staff time and costs of administration for earmarks
separately from other costs, and we could not determine those costs. Bureaus have a variety of
practices for charging fees for grant administration for earmarks. NOAA line offices charge up to
5 percent of the earmark pursuant to the Department’s budget reprogramming authority, which
was capped at $750,000 in FY 2006. NOAA officials stated that NOAA charged the fee only
when it was necessary to compensate for the cost of grant oversight and administration; however,
there is no separate accounting for the earmarked fees. ITA also charged for grant oversight and
administration, usually between 1.5 to 3 percent of an earmark, totaling $355,402 in FY 2006.
NIST does not charge earmarks a fee for grant administration. Census, USPTO and the
departmental management category do not have earmarked grants (see page 3).

The oversight of FY 2006 earmarked grants and contracts is the same as the oversight for non-
earmarked grants and contracts (see page 3).



                                                i
U.S. Department of Commerce                                               Final Report DEN-19021
Office of Inspector General                                                             May 2008

Commerce bureau officials we interviewed were in agreement that all of the FY 2006 earmarks
were consistent with the Commerce mission and strategic goals. Our review of a nonstatistical
sample of 32 earmarked grants from three Commerce bureaus (ITA, NIST and NOAA) found
that all were consistent with the mission of the Department. For Commerce’s strategic goals, the
sampled ITA grants were consistent with the goal to provide information and tools to maximize
U.S. competitiveness and enable economic growth for American industries, workers, and
consumers. The sampled NIST grants were consistent with the strategic goal to foster science
and technological leadership by protecting intellectual property (IP), enhancing technical
standards, and advancing measurement science. The sampled NOAA grants were consistent with
the strategic goal to observe, protect, and manage the Earth’s resources to promote
environmental stewardship. As a result, based on our analysis all 32 grants were consistent with
the mission and goals of Commerce (see page 5).

We did not make recommendations because the purpose of this review was to conduct an
independent analysis of the cost, oversight, and impact of congressional earmarks for FY 2006,
which was the most recent fiscal year with available information. However, we provided bureau
officials with an opportunity to review the report and provide informal comments prior to its
release. Bureau officials agreed with our report and we incorporated their suggestions into the
report (see page 7).




                                               ii
U.S. Department of Commerce                                                                      Final Report DEN-19021
Office of Inspector General                                                                                    May 2008

                                                     FINDINGS

I. 327 Congressional Earmarks Total $798.8 Million in FY 2006

In FY 2006, Commerce had a total of 327 earmarks totaling $798.8 million. More than 90
percent of the number of earmarks in Commerce went to NOAA, which had 298 earmarks
totaling $594.5 million.

Some $638.6 million in FY 2006 earmarks (almost 80 percent) provided funding for projects not
included in the President’s budget. Out of that amount, $459 million was for projects in NOAA.
NOAA officials told us that earmarks were commonly used for grants 1 to colleges and
universities for research on the oceans and atmosphere. Within the National Institute of
Standards and Technology (NIST), more than $125 million of the $139 million in funding was
for construction grants for engineering or science projects at colleges, universities, and
foundations.

Table 1. Analysis of Commerce Fiscal Year 2006 Earmarks

                                                                                Funding
                                           Funding            Funding                                             Percent of
                                                                               Limits for           Total FY
                                          Added to          for Projects                                           FY 2006
                         Number                                                Programs               2006
                                         Programs in           not in                                             Earmarked
       Bureau              of                                                      in              Earmarked
                                         President’s        President’s                                           Funding by
                        Earmarks                                               President’s           Funding
                                           Budget             Budget                                               Bureau
                                                                                 Budget             (millions)
                                          (millions)         (millions)
                                                                                (millions)
    NOAA             298          $89.5       $459.0                              $46.0               $594.5          74.4
    NIST              15            0.0        139.0                               0.0                 139.0          17.4
    Departmental
    Management        4             0.0        40.6          0.0                                       40.6               5.1
    ITA               6             0.0         0.0         20.0                                       20.0               2.5
    USPTO              2            0.0         0.0          4.7                                        4.7               0.6
    Census            2             0.0         0.0          0.0                                       0.0                0.0
    Total            327          $89.5       $638.6       $70.7                                      $798.8
    Percent                        11.2        79.9          8.9                                                     100.0
    Source: OIG Analysis of Department of Commerce Budget Office Data

Some earmarks added funding to amounts already requested by the President. In FY 2006, all
such earmarks, totaling $89.5 million, were in NOAA. NOAA officials provided an example of
one such earmark, which was $3 million for the OAR Marine Aquaculture Program. We were
told that aquaculture was an administration priority and Congress had provided additional funds
in recognition of the importance and magnitude of NOAA's aquaculture mission. These funds
were provided to allow NOAA to expand its competitive aquaculture program.


1
    For purposes of this report, we refer to both grants and cooperative agreements as grants.



                                                            1
U.S. Department of Commerce                                                Final Report DEN-19021
Office of Inspector General                                                              May 2008

Finally, some Commerce earmarks provided no additional funding above the President’s request
but placed limits on how funds within the President’s budget were to be spent. In FY 2006, such
earmarks totaled $70.7 million, or 8.9 percent of the total earmarked funding for Commerce. In
ITA, $20 million in earmarks were funded out of the amount requested by the President for that
agency. Of the $20 million, $19 million was for grants to colleges, universities, and
nongovernmental corporations for textile research, developing new technology, and improving
international competitiveness. An additional $1 million was for an export initiative to promote
first-time exporters in rural areas using ITA’s own staff. In USPTO, two earmarks were required
to be funded out of the amount requested for that agency. The two earmarks were for a $3.7
million joint operating agreement with the National Inventors Hall of Fame Foundation, Inc. for
the National Inventors Hall of Fame and Inventure Place and a $1 million memorandum of
understanding to the International Intellectual Property Institute. In 1973, USPTO co-founded
the National Inventors Hall of Fame Foundation, which is a long standing earmark. Finally, the
Census Bureau was required to fund two studies--one on prisoners’ permanent home of record
before incarceration and a one-time report on 2005 domestic sock production--out of the amount
requested by the President. The funding amounts available for each study, both of which were
completed by Census staff, were not identified in either earmark and the cost was not tracked by
Census.

Table 2. OIG Analysis of NOAA Fiscal Year 2006 Earmarks


                                   Funding      Funding for       Funding                   Percent of
                                                                               Total FY
                                  Added to      Projects not    Limits for                   FY 2006
                                                                                 2006
   NOAA Line         Number of   Programs in         in        Programs in                  Earmarked
     Office          Earmarks    President’s    President’s     President’s
                                                                              Earmarked
                                                                                            Funding by
                                   Budget         Budget          Budget        Funding
                                                                                            Line Office
                                  (millions)     (millions)      (millions)    (millions)

 National Ocean
 Service               115          $20.8          $205.7         $0.0          $226.5             38.1
 National Marine
 Fisheries Service      84          15.5            93.9          38.2           147.6             24.8
 Office of Marine
 and Aviation
 Operations             21          22.1            69.1           0.0           91.2              15.3
 Oceanic and
 Atmospheric
 Research               47           8.3            59.7           7.3           75.3              12.7
 National
 Environmental
 Satellite, Data
 and Information
 Service                15          22.6            16.8           0.0           39.4               6.6
 National Weather
 Service              16        0.2          13.8                  0.5           14.5               2.5
 Total               298       $89.5        $459.0                $46.0         $594.5
 Percent                       15.1          77.2                  7.7                         100.0
 Source: OIG analysis of NOAA Budget Office data


                                               2
U.S. Department of Commerce                                                        Final Report DEN-19021
Office of Inspector General                                                                      May 2008


While most of the earmarks in NOAA are for grants to support its science-based mission “to
understand and predict changes in Earth’s environment and conserve and manage coastal and
marine resources to meet our nation’s economic, social, and environmental needs,” NOAA
officials noted that some earmarks fund mission-related work by NOAA’s own staff. NOAA’s
mission supports one of Commerce’s three strategic goals (see page 4).

Commerce bureaus do not account for staff time and costs of administration for earmarks
separately from other costs. Therefore, we could not determine those costs. Bureaus have a
variety of practices for charging fees for grant administration for earmarks. NOAA line offices
charge up to 5 percent of the earmark pursuant to the Department’s budget reprogramming
authority, which was capped at $750,000 in FY 2006. NOAA officials told us that NOAA
charged the fee only when it was necessary to compensate for the cost of grant oversight and
administration; however, there is no separate accounting for the earmarked fees. ITA also
charged for grant oversight and administration, usually between 1.5 to 3 percent of an earmark,
totaling $355,402 in FY 2006. NIST does not charge earmarks a fee for grant administration.
Census, USPTO and the departmental management category do not have earmarked grants.

II. Earmarked Projects Have the Same Oversight and Compliance Requirements as Other
Projects

The oversight of FY 2006 earmarked grants and contracts is the same as oversight for
nonearmarked grants and contracts. More than 90 percent of the number and funding of FY 2006
earmarks are at NOAA, NIST and ITA. In our sample of 32 earmarked grants, 24 were to
colleges, universities, educational foundations, and Indian tribes. The other 8 grants were to state
and local governments and for-profit and nonprofit organizations. Unlike competitive
discretionary programs, 2 earmarked grants are not submitted in response to a Federal Register
announcement and bypass the competitive selection process of rating and ranking. Bureau
officials stated with that exception, earmarked grants have to meet the usual Commerce
requirements for nonearmarked grants: an application is required, Commerce standard terms and
conditions and OMB circulars apply, financial and performance reports, compliance with the
Code of Federal Regulations and a line item budget are required, and some receive occasional
agency oversight visits. We did not audit the effectiveness of the oversight process, but by
having these requirements and requiring earmarked recipients to comply with them, bureau
officials are positioned to monitor and oversee earmarked grants in the same manner as the
nonearmarked grants.

To test whether earmarked grants have these requirements, we conducted a nonstatistical sample
of 32 ITA, NIST and NOAA earmarked grants from the 327 total earmarks and found all 32
earmarked grants required compliance with the following:



2
 U.S. Department of Commerce Office of Inspector General, September 2000, Most Departmental Discretionary
Funding Programs Are Competitive and Merit-Based, but Opportunities Exist to Further Improve the Awards
Processes, ATL-10835, Atlanta Regional Office.



                                                     3
U.S. Department of Commerce                                                        Final Report DEN-19021
Office of Inspector General                                                                      May 2008

      •   Department of Commerce Financial Assistance Standard Terms and Conditions, which
          includes financial and program reporting as well as property requirements and special
          award conditions
      •   OMB circulars, which outline the principles for determining applicable costs and audit
          requirements, including:
              o OMB Circular No. A-21, Cost Principles for Educational Institutions
              o OMB Circular No. A-87, Cost Principles for State, Local and Indian Tribal
                  Governments
              o OMB Circular No. A-122, Cost Principles for Non-Profit Organizations and
              o OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
                  Organizations
      •   15 CFR Part 14 (Code of Federal Regulations), Uniform Administrative Requirements for
          Grants and Agreements with Institutions of Higher Education, Hospitals, Other Non-
          Profit, and Commercial Organizations, or 15 CFR Part 24, Uniform Administrative
          Requirements for Grants and Agreements to State and Local Governments

In addition, all 32 required a line item budget.

We also reviewed oversight of earmarks at departmental management, Census and USPTO.
Neither departmental management nor Census required additional oversight since their earmarks
did not transfer funds to outside organizations. The Census earmarks required a study conducted
by Census staff and a report as part of Census usual operations. At USPTO, the joint operating
agreement and the memorandum of understanding resulted in $4.7 million transferred to two
nongovernment organizations. USPTO officials said the earmarks were treated as contracts and
followed the usual contract review oversight procedures including a four-person team consisting of
an attorney, a budget analyst, a contract specialist, and a financial analyst.

III. Earmarked Projects are Consistent with Commerce Mission and Goals

We interviewed program and budget officials about the 327 earmarks and their relationship to
the Commerce and bureau missions, strategic goals, and objectives. The Commerce mission and
goals are very broad and provide a framework for nine bureaus with diverse missions in
economic growth, science and technology, and environmental stewardship. The Commerce
mission statement is:

          The Department of Commerce creates the conditions for economic
          growth and opportunity by promoting innovation, entrepreneurship,
          competitiveness, and stewardship. 3

Commerce has three diverse strategic goals:

      Goal 1: Provide the information and tools to maximize U.S. competitiveness and enable
      economic growth for American industries, workers, and consumers.


3
    U.S. Department of Commerce, FY 2006 Performance & Accountability Report, 2.


                                                       4
U.S. Department of Commerce                                                        Final Report DEN-19021
Office of Inspector General                                                                      May 2008

    Goal 2: Foster science and technological leadership by protecting intellectual property (IP),
    enhancing technical standards, and advancing measurement science.
    Goal 3: Observe, protect, and manage the Earth’s resources to promote environmental
    stewardship. 4

Commerce bureau officials we interviewed were in agreement that all of the FY 2006 earmarks
were consistent with the Commerce mission and strategic goals. Our review of the nonstatistical
sample of 32 earmarked grants found that all were consistent with the mission of the Department.
With regard to Commerce’s strategic goals, we found that ITA grants were consistent with the
first strategic goal, the NIST grants were consistent with the second strategic goal, and the
NOAA grants were consistent with the third strategic goal. As a result, based on our analysis all
32 grants were consistent with the mission and goals of Commerce.

Since more than 90 percent of the number of FY 2006 earmarks were in NOAA, we reviewed
NOAA’s mission and four major mission goals as described in its 5-year plan for FYs 2005-
2009. The plan described the following four major mission goals:

    •   Ecosystems – Protect, restore, and manage use of coastal and ocean resources through
        ecosystem-based management
    •   Climate – Understand climate variability and change to enhance society’s ability to plan
        and respond
    •   Weather and Water – Serve society’s needs for weather and water information
    •   Commerce and Transportation – Support the nations’ commerce with information for
        safe, efficient and environmentally sound transportation 5

NOAA officials told us that when NOAA grants and contracts are awarded, the earmarked
awards have been through the usual bureau review and/or the grants office or contract office
review, including a legal review, to ensure they meet NOAA’s major mission goals. They also
told us that the process is the same for all awards, including earmarks.

To test the attention paid to the relationship between NOAA’s earmarks and the agency’s
mission and goals, we reviewed a nonstatistical sample of 32 earmarked grants files 6 from
NOAA, NIST, and ITA. The sample included 13 earmarked grants from six NOAA line offices.
We noted different documentation practices across the line offices in merit reviews of grants.
The files we examined contained a written analysis indicating that the project had been reviewed
in various categories by one or more people. Categories included the proposed project’s technical
and scientific merit and relevance to program goals.

The NIST earmarked grant files we reviewed also included technical reviews of earmarks before
grant awards. The technical review included an assessment of the project’s objectives, scope, and
approach as well as a determination that the project’s proposed budget and spending plan were
reasonable. The technical reviews did not require citation of a specific Commerce or NIST

4
  Ibid 10-11.
5
  National Oceanic and Atmospheric Administration, January 2005. Research in NOAA: Toward Understanding and
Predicting Earth’s Environment, A Five-Year Plan: Fiscal Years 2005 – 2009, 7.
6
  For a description of the nonstatistical sample, see Appendix II, 10.


                                                     5
U.S. Department of Commerce                                                Final Report DEN-19021
Office of Inspector General                                                              May 2008

strategic goal for the project. The NIST officials we interviewed believed that NIST earmarked
grants were consistent with the agency’s mission with one exception. They identified a FY 2006
earmark for an $8 million downtown revitalization project as not being consistent with NIST’s
mission or goals. This earmark was included in the FY 2006 Appropriations Act. 7 NIST officials
cited the project as being more consistent with the mission and strategic goals of Commerce’s
Economic Development Administration.

At ITA, we reviewed grant documentation and interviewed officials. They stated that all
earmarked projects were consistent with the agency’s mission and goals. However, ITA officials
noted that $19 million for ITA grants reduced funding available to support ongoing ITA
operations. They expressed the concern that each time a new grant is added from ITA’s existing
budget, the funding available for ITA staff and operations in support of other U.S. businesses is
reduced.




7
    Public Law 109-108 section 207



                                                6
U.S. Department of Commerce                                                Final Report DEN-19021
Office of Inspector General                                                              May 2008

IV. Conclusion

In FY 2006, Commerce had a total of 327 earmarks totaling $798.8 million. Commerce bureaus
do not account for staff time and costs of administration for earmarks separately from other
costs. Therefore, we could not determine the staff time or costs of administration for earmarks.
Bureaus have a variety of practices for charging fees for grant administration for earmarks.
NOAA line offices charged up to 5 percent of the earmark only when it was necessary to
compensate for the cost of grant oversight and administration. ITA also charged for grant
oversight and administration, usually between 1.5 to 3 percent of an earmark. NIST does not
charge earmarks a fee for grant administration. Census, USPTO and the departmental
management category do not have earmarked grants.

The oversight of FY 2006 earmarked grants and contracts is similar to oversight for
nonearmarked grants and contracts.

Commerce bureau officials we interviewed were in agreement that all of the FY 2006 earmarks
were consistent with the Commerce mission and strategic goals. Our review of the nonstatistical
sample of 32 earmarked grants found that all were consistent with the mission of the Department.

We did not make recommendations because the purpose of this review was to conduct an
independent analysis of the cost, oversight, and impact of congressional earmarks for FY 2006,
which was the most recent fiscal year with available information. However, we provided bureau
officials with an opportunity to review the report and provide informal comments prior to its
release. Bureau officials agreed with our report and we incorporated their suggestions into the
report.




                                                7
U.S. Department of Commerce                                            Final Report DEN-19021
Office of Inspector General                                                          May 2008

                                                                              APPENDIX I


                     U.S. Department of Commerce Organization Chart*




Source: U.S. Department of Commerce, FY 2006 Performance & Accountability Report, 2

*Bureaus with earmarked funds in their FY 2006 budgets were highlighted in yellow by OIG.




                                             8
U.S. Department of Commerce                                                           Final Report DEN-19021
Office of Inspector General                                                                         May 2008

                                                                                             APPENDIX II
                                                                                                Page 1 of 3

                      OBJECTIVES, SCOPE, AND METHODOLOGY

We audited Commerce’s FY 2006 congressional earmarks, the most recent fiscal year for which
we had available information. Based on the request we received, our objectives were to assess
the total number and cost, oversight, and impact of congressional earmarks on the Commerce
mission and goals. We did not audit individual earmarks, but reviewed the ways in which
affected Commerce bureaus implemented FY 2006 congressional earmarks.

To determine how to structure our audit, we examined other reports on earmarked funds by
offices of Inspector General at the Department of Transportation, 8 the Environmental Protection
Agency, 9 and the National Aeronautics and Space Administration,10 as well as a report from the
U.S. Government Accountability Office. 11

To determine a definition for earmarks and the number and cost of FY 2006 earmarks, we
reviewed a number of sources including the U.S. Department of Commerce FY 2006
Performance & Accountability Report (PAR), 12 which included the Commerce FY 2006
financial statements, and a Congressional Research Service memorandum of March 6, 2006,
Earmarks in FY 2006 Appropriations Acts. 13 Although we reviewed data on the number and
dollar amount of earmarks in the PAR, we did not rely on the PAR’s definition of an earmark
because the Department of Commerce FY 2006 Performance & Accountability Report uses a
definition for earmarks from Statements of Federal Financial Accounting Standards 27,
Identifying and Reporting Earmarked Funds. Earmarks are financed by specifically identified
revenues, often supplemented by other financing sources, which remain available over time. 14
The PAR used a Department budget of $6.8 billion with $1.6 billion identified as earmarks. The
earmarks included $1.487 billion for USPTO, $63 million for two NOAA programs with $34.6
million for the Coastal Zone Management Fund and $28.5 million for the Damage Assessment
and Restoration Revolving Fund, $29 million for the National Technical Information Service,
and $45 million identified for all other earmarked funds. 15

8
  Department of Transportation Office of Inspector General, September 7, 2007, Review of Congressional Earmarks
within Department of Transportation Programs, Report Number AV-2007-066, Washington, D.C.
9
  Environmental Protection Agency Office of Inspector General, May 22, 2007, Number of and Cost to Award and
Manage EPA Earmark Grants, and the Grants’ Impact on Agency’s Mission, Audit Report No. 2007-P-00024,
Washington, D.C.
10
   National Aeronautics and Space Administration Office of Inspector General, August 9, 2007, Audit of NASA’s
Management and Funding of Fiscal Year 2006 Congressional Earmarks, Report Number IG-07-028, Washington,
D.C.
11
   U.S. Government Accountability Office, January 31, 2008, CONGRESSIONAL DIRECTIVES: Selected Agencies’
Processes for Responding to Funding Instructions, Report Number GAO-08-209, Washington, D.C.
12
   U.S. Department of Commerce, November 15, 2006, FY 2006 Performance & Accountability Report,
Washington, D.C.
13
   Congressional Research Service memorandum, March 6, 2006, Earmarks in FY 2006 Appropriations Acts,
Washington, D.C. CRS-1, CRS-31.
14
   Department of Commerce, November 15, 2006, FY 2006 Performance & Accountability Report, Washington,
D.C., 197.
15
   Ibid 240.


                                                       9
U.S. Department of Commerce                                                          Final Report DEN-19021
Office of Inspector General                                                                        May 2008

                                                                                            APPENDIX II
                                                                                               Page 2 of 3

The March 6, 2006, Congressional Research Service memorandum states that there is no single
definition of the term earmark, nor is there a standard earmarking practice across all
appropriation bills. 16 The memorandum did not distinguish between earmarks that originated in
the Executive Branch or in Congress. The memorandum also did not address earmarks in other
legislation, such as authorization, revenue, or supplemental appropriation bills. The
memorandum cited 525 earmarks valued at $5.5 billion for the Department of Commerce with
90 percent of the earmarks for NOAA. 17 Since the memorandum did not distinguish between
earmarks originating in the Executive Branch or in Congress, we did not rely on the
memorandum’s definition of an earmark to respond to Senator Coburn’s request.

In addition, we examined data from the Commerce Office of Budget on the number and dollar
amount of earmarks. The Commerce Budget Office definition of earmarks includes a variety of
Congressional actions to increase spending for programs in the President’s budget, add projects
to the President’s budget and designate spending within the President’s budget. This definition
includes funding passed through Commerce to a grantee or contractor as well as funding retained
within Commerce, subject to specific Congressional guidance, such as $34 million for the
Commerce working capital fund. This definition does not include Executive Branch earmarks.
We traced all earmarks for each Commerce bureau identified as having earmarks to FY 2006
congressional reports, including House, Senate, and conference reports, and the 2006
Appropriations Act. 18 In addition, we consulted with the Commerce OIG Office of Counsel to
determine if earmarks might have been included in authorization or other legislation in FY 2006.
We identified 327 earmarks for FY 2006 from the Commerce Office of Budget data.

To determine Commerce and its bureaus’ financial and programmatic oversight of earmarks and
their impact on the Department’s mission, strategic goals, and objectives, we interviewed
officials in the Commerce Office of Budget and at bureaus that had identifiable earmarks. The
bureaus with earmarks were Census, International Trade Administration, (ITA), National
Institute of Standards and Technology (NIST), National Oceanic and Atmospheric
Administration (NOAA), United States Patent and Trademark Office (USPTO), and the
departmental management category. We have included an appendix showing the Commerce
bureaus that received earmarks (see Appendix I).




16
   Congressional Research Service memorandum, March 6, 2006, Earmarks in FY 2006 Appropriations Acts,
Washington, D.C., CRS-1.
17
   Ibid. CRS-31.
18
   House Report 109-118, Senate Report 109-88, House Conference Report 109-272, and Public Law. 109-108, the
Science, State, Justice, Commerce, and Related Agencies Appropriation Act of 2006.



                                                     10
U.S. Department of Commerce                                                 Final Report DEN-19021
Office of Inspector General                                                               May 2008

                                                                                  APPENDIX II
                                                                                     Page 3 of 3

To determine earmarks’ compliance with regulations and the internal controls over earmarks, we
interviewed officials at NOAA, NIST, and ITA. In addition, we conducted a nonstatistical
sample of 32 ITA, NIST, and NOAA earmarked grants representing 10 percent of the 327
earmarks totaling $166 million or 20.8 percent of the $798.8 million in total fiscal year 2006
earmarks for all Commerce bureaus. We selected ITA, NIST and NOAA earmarked grants for
two reasons: (1) these three bureaus had more than 90 percent of the number and dollar value of
earmarks for us to evaluate oversight of earmarks, and (2) these three bureaus each addressed
one of three different Commerce strategic goals for us to assess the impact of earmarks. We also
tested whether the nonstatistical sample of earmarked grants required compliance with
Department of Commerce Financial Assistance Standard Terms and Conditions, line item
budgets, OMB circulars, 15 CFR Part 14, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, Other Non-Profit, and Commercial
Organizations or 15 CFR Part 24, Uniform Administrative Requirements for Grants and
Agreements to State and Local Governments. Because our sample was not statistical, we cannot
extrapolate its results to all 327 earmarks. However, our sample does provide support for what
bureau officials told us.

To the extent that we relied on computer-processed data supplied by the Commerce budget office
and bureaus that received earmarked funds, we determined the validity and reliability of
computer-processed data by direct tests of the data against supporting documentation. Based on
our tests, we concluded that the computerized data was sufficiently reliable for use in meeting
our objectives.

This audit was conducted under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted our fieldwork from January to March 2008 at
Department of Commerce headquarters in Washington, D.C. and at NOAA headquarters in
Silver Spring, Maryland.




                                               11
U.S. Department of Commerce                                            Final Report DEN-19021
Office of Inspector General                                                          May 2008

                                                                            APPENDIX III

Prior Earmark Reports

During the last 2 years, Congressional Research Service (CRS), the Government Accountability
Office (GAO), and the offices of Inspector General for the U. S. Department of Agriculture
(USDA), the U.S. Department of Defense (DoD), the U.S. Environmental Protection Agency
(EPA), the U. S. Department of Education (ED), National Aeronautics and Space Administration
(NASA), and the U.S. Department of Transportation (DOT) issued reports discussing
congressional earmarks.


CRS      Memorandum, Earmarks in FY2006 Appropriations Acts, March 6, 2006.

GAO      Report No. GAO-08-209, CONGRESSIONAL DIRECTIVES: Selected Agencies’
         Processes for Responding to Funding Instructions, January 31, 2008.

USDA     Report No. 50601-15-Te, Review of Fiscal Year 2005 Congressional Earmarks, March
         12, 2007.

DoD      Report No. D-2008-073, Report on the Cost, Oversight, and Impact of Congressional
         Earmarks, March 31, 2008.

EPA      Report No. 2007-P-00024, Number of and Cost to Award and Manage EPA Earmark
         Grants, and the Grants’ Impact on the Agency’s Mission, May 22, 2007.

ED       Report No. ED-OIG/I13H0004, Inspection of Active Congressional Earmarks in Fiscal
         Year 2005, September 25, 2007.

NASA     Report No. IG-07-028, Audit of NASA’s Management and Funding of Fiscal Year 2006
         Congressional Earmarks, August 9, 2007.

DOT      Report No. AV-2007-066, Review of Congressional Earmarks within Department of
         Transportation Programs, September 7, 2007.




                                             12
